U.S. Department of the Interior
Office of inspector General




           AUDIT REPORT


          IDENTIFICATION OF
      UNNEEDED ACQUIRED LANDS,
       BUREAU OF RECLAMATION


             REPORT NO. 99-I-133
              DECEMBER 1998
                                                                                    W-IN-BOR-001-98-D

                United States Department of the Interior
                                 OFFICE OF INSPECTOR GENERAL
                                           Washington, D.C. 20240


                                                                          DEC 2 i l8@

                                        AUDIT REPORT

Memorandum

To:        Assistant Secretary for Water and Science

From:      Robert J. Williams .T?k&-k &!
           Assistant Inspector Gen ral for A its

Subject: Audit Report on the Identification of Unneeded Acquired Lands,
         Bureau of Reclamation ( NO. 99-I-133)

                                       INTRODUCTION
This report presents the results of our audit of the Bureau of Reclamation’s review process
for identifying unneeded acquired lands. The objective of the audit was to determine
whether the Bureau was conducting the required reviews of real property’ it manages to
identify, report, and dispose of acquired lands no longer needed for project purposes in
accordance with Federal and Bureau regulations and Reclamation law.

BACKGROUND

The Reclamation Act of 1902 and subsequent statutes authorized the Bureau to construct,
operate, and maintain an infrastructure of water storage facilities’ to reclaim arid and
semiarid lands in the Western United States. Bureau projects consist of about 348 storage
dams and reservoirs and 54,500 miles of canals and other conveyance and distribution
facilities.

In the late 1980s the Bureau concluded that it had mostly achieved its mission as a developer
of large, Federally funded water projects and redefined its mission to that of a water
resources management agency focused on conservation and the environment. As a result,


‘As used in this report, real property refers to the land acquired by the Bureau for project purposes.

These facilities serve multiple purposes, including irrigation, municipal and industrial water supply, power,
flood control, recreation, fish and wildlife mitigation and enhancement, and navigation.
Bureau programs are gradually changing from emphasizing construction to emphasizing
water conservation, wastewater reuse, river basin management, and environmental
restoration. Some of the projects the Bureau anticipated constructing will not be built, and
in some cases, the lands acquired will not be needed for project purposes.

On November 1, 1993, the Commissioner, Bureau of Reclamation, stated in the
memorandum “Blueprint for Reform” that “all existing guidance [Reclamation Instructions]
will be sunset[ted] at the end of fiscal year 1995 unless affirmatively retained or revised and
reissued prior to then.” However, the requirements set forth in the Federal Property
Management Regulations (41 CFR 101-47.8) remained in effect and provided criteria for
identifying unneeded Federal real property and required executive agencies to conduct
annual reviews oftheir real property and prepare detailed written records of the reviews. The
“sunsetted” Reclamation Instructions (Series 210, Parts 215.1.9A and 215.10.2)
implementing the Federal Property Management Regulations required that land reviews be
conducted at a minimum of “every 5 years, with more &equent reviews for areas with special
problems or relatively weak managing agencies” and defined unneeded property as property
with no foreseeable future need and property not used for program purposes within 3 years
from the end of the current fiscal year. Part 215.10.2 further stated that “[t]he less certain
this probable titure need is, the greater consideration must be given to disposal.”

As of January 1998, the Bureau’s automated land management record system (the Resource
Information System) listed 178 projects with associated acquired land of 2.2 million acres,
ranging from 0.3 acre to 267,008 acres. This land, which was acquired for project purposes
through purchases, condemnations, gifts, or exchanges, is managed primarily by other
agencies, including other Department of the Interior agencies, other Federal departments,
state governments, and local jurisdictions. However, the Bureau is responsible for
identifying, reporting, and disposing of unneeded acquired lands.

SCOPE OF AUDIT

WC conducted our audit from January through June 1998 at the Bureau offices identified in
Appendix 2. To accomplish our objective, we reviewed applicable Federal laws and Federal
and Bureau regulations and policies, including draft Reclamation Manuals, governing the
ownership of real property as it relates to acquired land and Bureau activities pertaining to
land reviews conducted from 1993 through 1997. Based on the percentage of acquired lands
associated with each Bureau project, information obtained from a 1985 General Accounting
Office report’ about projects with unneeded acquired lands, and an examination of project
maps, we judgmentally selected projects within regional and area offices to be reviewed. As
such, we conducted a detailed review of selected land parcels on 14 projects or project units
(see Appendix 3) representing about 30 percent, or about 660,000 acres, of the Bureau’s



‘The report “The Bureau of Reclamation Could Identify More Unneeded Land” (No. GAO/RCED-85-25),
issued on April 12, 1985.

                                               2
2.2 million acres of acquired lands.* Our review of each project or unit included an
examination of authorizing legislation; realty documents, including project plat and other
maps, correspondence, and project and land management reports related to land acquisition,
management, and disposal; and documents related to land use, including management plans
and lease agreements with local entities and private parties. In addition, we interviewed
cognizant Bureau program and realty personnel familiar with the projects or project units
under review.

The audit was made, as applicable, in accordance with the “Government Auditing
Standards,” issued by the Comptroller General of the United States. Accordingly, we
included such tests of records and other auditing procedures that were considered necessary
under the circumstances. As part of the audit, we reviewed the Departmental Reports on
Accountability for fiscal years 1996 and 1997, which included information required by the
Federal Managers’ Financial Integrity Act, and determined that no material weaknesses were
reported that directly related to the objective and scope of our audit.

We also reviewed the system of internal controls over the Bureau’s process of reviewing
acquired land to the extent that we considered necessary. We found that the Bureau had not
established the internal controls and procedures needed to ensure that the required real
property reviews were conducted and, accordingly, had not identified unneeded acquired
lands through this process. These weaknesses are addressed in the “Results of Audit” section
of this report. Our recommendations, if implemented, should improve the internal controls
in these areas.

PRIOR AUDIT COVERAGE

Neither the Office of Inspector General nor the General Accounting Office has issued any
reports on the Bureau’s identification and disposal ofunneeded acquired lands within the last
5 years.

                                   RESULTS OF AUDIT
The Bureau of Reclamation has not conducted real property reviews since 1993 to identify
unneeded acquired lands associated with its water projects. Federal Property Management
Regulations require that each executive agency conduct annual reviews of real property to
determine whether any portion of the property is not being used, is being underused, or is not
being put to optimum use. However, we concluded that the Bureau did not conduct its
acquired lands reviews primarily because it had assigned a low priority to such reviews. In
addition, the Bureau had “sunset-ted” its internal instructions implementing the Federal
Property Management Regulations. Thus, according to some Bureau regional and area office
employees, they did not believe that the “sunsetted” instructions should be followed. As a
result of not identifying unneeded acquired lands through the required process, the Bureau


40ur review did not consist of a detailed examination of all 178 Bureau projects.

                                                     3
did not initiate actions to report and dispose ofsuch lands and to generate potential revenues
from the sale of these lands. Our review of 14 projects or project units identified about
67,220 acres of potentially unneeded acquired lands, which had a Bureau-estimated current
value of about $17.5 million (see Appendix 3). According to Bureau officials, the estimated
current value is based on the purchase price of the land and does not represent the land’s fair
market value.

The Code of Federal Regulations (41 CFR 101-47.201-l and 201-2, “Federal Property
Management Regulations”) requires annual reviews of real property to “stimulate the
identification and reporting . . . of excess real property . . . [t]o achieve the maximum
utilization [of real property] . . . in terms of economy and efficiency.” In 1985, the General
Services Administration stated that “departments and agencies should schedule surveys of
their real property holdings on a S-year cycle” and initiated procedures for most
land-managing agencies to perform intensive reviews in accordance with the Code (41 CFR
101-47.8). In addition, prior Reclamation Instructions and the draft “Reclamation Manual
on Administration of Land Resources”’ state that acquired lands should be reviewed, at a
minimum, every 5 years.

We found that none of the Bureau’s regions and area offices visited or contacted had
conducted the acquired land reviews since 1993. As such, we performed audit fieldwork to
determine whether selected acquired lands retained by the Bureau were needed for project
purposes. Based on our review of the selected 14 projects or project units, we identified
67,220 acres of potentially unneeded acquired lands that had an estimated current value of
approximately $17.5 million, as detailed in Appendix 3 and discussed as follows:

         - We identified 36,525 acres that had been purchased to obtain water rights at the
Gila (4,530 acres), Colorado River Basin Salinity Control (2,995 acres), and Humboldt
(29,000 acres) Projects. Although the acquired land will be less valuable without water
rights, Bureau officials for the three projects agreed that the land was not needed for project
purposes. At the Gila Project, 1,770 acres were part of a bombing range at a U.S. Air Force
range, and 2,760 acres were idle. The 2,995 acres at the Colorado River Basin Salinity
Control Project were idle, and the Yuma Area Office had identified three trespasses on the
land, one of which has been ongoing since 1996. The 29,000 acres at the Humboldt Project
were used only for seasonal pasturing of livestock, which is not a project purpose.



‘The Bureau provided us with the draft manual, which had not been offkially approved and released as of June
1998. The Manual reestablishes most of the responsibilities and requirements from prior Reclamation
Instructions. Specifically, it states that regronal directors and area managers are responsible for administering
land resources under Bureau jurisdiction even if management of the land is transferred to another entity;
specialized use of the land, such as grazing, is allowed only if the use is compatible with authorized project
purposes; private and semiprivate long-term use of the land, such as new cabins, clubs, or organized camps,
is not allowed; and reviews of land are required, at a minimum, every 5 years to identify health and safety
hazards, trespasses, lands no longer needed for project nurnoses, and authorized uses that may no longer be
in the best interest of the public or the project. However, the Bureau had not established a date for issuing the
draft Reclamation Manual, as it was being revised at the time of our audit.

                                                        4
        - We identified 6,321 acres of land located above the reservoir capacity elevation at
the Willow Creek (650 acres), Canyon Ferry (475 acres), Stony Gorge (440 acres), and East
Park (250 acres) Reservoirs and atElwell(3,500 acres) and Banks (860 acres) Lakes. Under
the Code of Federal Regulations (43 CFR S), the Department of the Interior and the
U.S. Army Corps of Engineers are required to acquire and retain land only up to the design
capacity of the reservoir. In addition, at the Canyon Ferry Reservoir, we identified acquired
lands (146 acres) that were used as a golf course and athletic field, which were not project
purposes.

        - We identified 2,327 acres of land at the Narrows Unit of the Pick-Sloan Missouri
Basin Program. Of this land, 1,065 acres were located outside the boundary of the Unit,
which was downsized in 1984. Although the remaining 1,262 acres were within authorized
project boundaries, Bureau officials told us that neither the original nor a downsized version
of the Unit would be built. Accordingly, the Bureau’s retention of the 2,327 acres does not
appear to be warranted. The Unit was authorized in 1970 but was never developed because
of environmental concerns about the impact of the Unit on threatened and endangered
species in the Platte River system.

        - We identified 19,589 acres of land at the Oahe Unit of the Pick-Sloan Missouri
Basin Program. According to Bureau officials, the Unit will not be built in the foreseeable
future. The Congress discontinuedconstruction appropriations beginning in fiscal year 1978
and, in 1982, enacted legislation authorizing the Secretary of the Interior to find other uses
for existing facilities constructed under the initial stage of the Unit, cancel existing
repayment contracts with the districts, and treat costs already incurred as deferred Program
costs. The construction of the Unit has been opposed by local interests, including project
beneficiaries who believe that project benefits do not justify the cost of development. Ofthe
19,8 14 acres of land acquired by the Bureau to develop the Unit, 225 acres were used for fish
and wildlife mitigation and enhancement, which were authorized project purposes of the
Unit. At the time of our review, we noted that 18,525 of the 19,589 acres of unneeded lands
were leased exclusively for livestock grazing and for agricultural purposes, which are not
project purposes.

        - We identified 1,810 acres of acquired land located at the Sun River Project
(1,360 acres) and at Shasta (300 acres) and New Melones (150 acres) Lakes that were
potentially unneeded because the land was located outside project boundaries or existing
recreational areas and was not used for project purposes at the time of our review. During
our review, Bureau officials agreed with this assessment of need.

        - While reviewing project files at the Mid-Pacific and Great Plains Regional Offices
and the South-Central California and Montana Area Offices, we found 13 parcels, totaling
648 acres, at four projects or project units that had been previously identified for disposal by
the Bureau prior to 1993 or that had a long-term trespass history but had not been disposed
of. Realty personnel said that they were not aware that these parcels had been previously
identified as unneeded, and Bureau project files did not include documentation to indicate
that the parcels’status had changed. For instance, of the 10 parcels, totaling 48 acres,

                                              5
located along the Friant-Kern Canal, 9 parcels, totaling 45 acres, were identified as unneeded
as early as 1984, and a 3-acre parcel has been the subject of a trespass by a local farmer since
1992, at which time an expired lease agreement was not renewed. Officials at the South-
Central California Area Office told us that they did not have time to resolve the trespass and
that the land was being retained because of a 1991 U.S. Fish and Wildlife Service biological
opinion that required a survey of the lands served by the Canal within 18 months to identify
remaining habitat for threatened or endangered species. However, at the time ofour review,
the survey had not been initiated.

We believe that the Bureau had not performed the required reviews because it assigned a low
priority to conducting such reviews. Bureau officials told us that the Bureau had “few land
disposal tools” available to assist it in identifying and disposing of its unneeded acquired
lands. Bureau officials said that they believed the following factorsjustified why the reviews
were not conducted: (1) realty employees who conducted the reviews had left the Bureau
during extensive downsizing, (2) land acquired for projects unlikely to be built or completed
as planned should not be disposed of until the projects were formally deauthorized by the
Congress, (3) land not presently needed for a project might be needed in the future for
purposes such as recreation and fish and wildlife enhancement, and (4) Reclamation
Instructions requiring real property reviews and the identification of unneeded acquired land
were “sunsetted” at the end of fiscal year 1995. Officials in the Bureau’s Program Analysis
Office stated that they believed that these Instructions Lvould be followed by area and field
offices until the Reclamation Manual on the administration of land resources was completed
and issued. However, field personnel told us that they were not aware that the “sunsetted”
Instructions remained in effect. While we recognize that these factors may have affected the
Bureau’s allocation of staff and funding resources, we were not able to confirm that these
factors prevented the Bureau from performing any acquired land reviews and taking
appropriate actions, such as notifying the Congress of its intention to dispose of acquired
lands on projects unlikely to be built.

In the September 25, 1998, response (Appendix 4) to the draft of this report from the
Commissioner, Bureau of Reclamation, the Bureau reported that it had disposed of 4,600
acres of acquired land with an estimated current market value of $9.3 million during fiscal
years 1993 through 1997. Upon receipt of the response, we requested additional information
related to the disposals cited. However, the Bureau did not specify the individual parcels or
the bases for the estimated current fair market value. Therefore, we were not able to verify
the accuracy of the reported disposals. At,the locations we visited, we did not identify any
regularly scheduled real property reviews and subsequent disposals of acquired lands.

Recommendations

We recommend that the Commissioner, Bureau of Reclamation:

       1. Develop and issue clear policies and procedures to guide Bureau officials in
conducting land reviews and identifying unneeded real property.


                                              6
       2. Establish a Bureauwide plan of action to ensure that regular reviews of real
property are conducted based on the guidance developed under Recommendation 1.

        3. In implementing Recommendations 1 and 2, notify the Congress of the Bureau’s
intention to dispose of acquired lands in accordance with 41 CFR 101-47 that were initially
purchased for authorized projects but presently are not needed for undeveloped or incomplete
projects.

Bureau of Reclamation Response and Office of Inspector General Reply

In the September 25, 1998, response (Appendix 4), the Bureau concurred with the three
recommendations. Based on the response, we consider the recommendations resolved but
not implemented. Accordingly, the unimplemented recommendations will be referred to the
Assistant Secretary for Policy, Management and Budget for tracking of implementation, and
no further response to the Offrce of Inspector General is required (see Appendix 5).

Additional Comments on Audit Report

In its response, the Bureau also made additional comments on the draft report regarding the
Bureau’s land disposal program. These comments primarily addressed two Bureau concerns:
(1) “narrow interpretation” and application of the Code of Federal Regulations (43 CFR 8,
“Joint Policies of the Departments of the Interior and of the Army Relative to Reservoir
Project Lands”) by the audit team and (2) lack of recognition ofBureau actions in reviewing,
disposing of, and retaining acquired lands. The Bureau’s comments and our replies to the
comments are as follows:

        - The Bureau stated that the audit team used a “narrow interpretation” of the Code
(43 CFR 8) when the team identified the 67,220 acres of acquired lands as potentially
unneeded. Specifically, the Bureau stated, “The interpretation that has been applied is that
if the lands do not have structures or actual waters associated with the reservoirs, then the
lands are excess to the authorized project program requirements.” The Bureau further stated
that it believes the policy is “broader than described in the report” and that the Code (43 CFR
8) “provides for management discretion in acquiring additional lands forfish and wildlife”
and “future outdoor recreation.” The Bureau concluded, “It is important not to dispose of
lands that may have habitat potential for wildlife or that may be beneficial for program
mitigation purposes.”

Although we agree that the regulation allows the Bureau the discretion to acquire additional
lands for future tish and wildlife and recreational purposes, we disagree that we applied a
narrow interpretation of the Code (43 CFR 8). In that regard, we believe that the Bureau
should use the land for the purposes for which it was purchased or document specific future
needs. Without such use or documented need, the continued retention of the land is
questionable. For example, the land identified around Lake Elway was purchased in the
mid- 1950s for the purpose of providing an irrigation water supply that was never fully

                                              7
developed. The land identified in this instance is currently used to graze livestock, and the
Bureau has not documented a present or future need associated with fish and wildlife habitat
or outdoor recreation. Further, we believe that adopting the Bureau’s interpretation that
lands, if they may have habitat or recreation potential, should not be disposed of appears to
nullify the disposal requirements contained in the Code (41 CFR 101-47.8) without
documented justification.

The Bureau also stated that during the period of the audit, 1993 to 1997, some Bureau offices
had performed field reviews of acquired land and had disposed of acquired land. The Bureau
cited the efforts of the Ephrata Field Office, which reviewed 89,000 acres as part of its
Scattered Tracts Resource Management Plan and which was evaluating land uses associated
with Banks Lake in the Columbia Basin Project as part of another resource management
planning effort. During our audit, we noted the reviews conducted by the Ephrata Field
Office as part of its resource management planning. However, the identification of
unneeded land is normally not a part of such plans but was included in the Scattered Tracts
Plan only because the sale of “settlement land” was specifically identified as a project
purpose. Therefore, the review was not part of a systematic real property review process but
was performed only because the land was identified for sale as part of the project purpose.
In the case of the Banks Lake lands, Bureau officials told us that the resource management
plan would not address whether the land was needed.

The Bureau also stated that “considerable staff resources . . . [were] required to effectuate
these disposals” and that our final report “should recognize that . . . Reclamation disposed
of approximately 4,600 acres of acquired land with a current fair market value of over
$9,300,000.” During our audit fieldwork, Bureau officials did not inform usof the disposal
of the 4,600 acres. Therefore, we contacted the Bureau after receiving its response and
inquired about the specifics of these transactions. However, the Bureau was not able to
identify the projects or parcels involved or the bases for the estimate of current fair market
value. As a result, we were not able to verify the accuracy of the reported disposals.
However, we have added a paragraph to the report (page 6) to recognize the Bureau’s
comments. The Bureau further stated, “In other cases, there are valid reasons why the
disposal of lands has not occurred.” In that regard, the Bureau cited 19,589 acres of land in
the Oahe Unit being retained “pending final negotiations with the State of South Dakota” and
“‘unused’ lands associated with the Gila and Lower Colorado River Salinity Control Acts.”
Regarding the Oahe Unit, we were not made aware during our audit of the Bureau’s
negotiations with the State of South Dakota. Regarding the Bureau’s retaining “unused”
lands associated with the Gila and Lower Colorado River Salinity Control Acts to avoid the
risk of real estate development and the concomitant pumping of groundwater, we believe,
and Bureau officials agreed, that these lands could be sold without water rights.

We commend the Bureau for the actions it has taken regarding the review and disposal of
acquired land. However, these actions were the result of reviews performed outside of the
acquired land review process, such as disposals initiated by local governmental agencies or
private parties interested in obtaining or using Bureau land, rather than the result of real
property reviews conducted in a consistent and uniform manner in accordance with

                                             8
regulations. Notwithstanding these actions, we identified the 67,220 acres of acquired land
as possibly unneeded because no documented determination on use (current or future) had
been made by the Bureau at the time of our audit.

The legislation, as amended, creating the Office of Inspector General requires semiannual
reporting to the Congress on all audit reports issued, the monetary impact of audit findings
(Appendix l), actions taken to implement audit recommendations, and identification of each
significant recommendation on which corrective action has not been taken.

We appreciate the assistance of Bureau personnel in the conduct of our audit.




                                            9
                                                                                            APPENDIX 1


                CLASSIFICATION OF MONETARY AMOUNTS

                                                                                   Potential
                           Finding                                            Additional Revenues

Acquired Lands Identified as Possibly Unneeded                                     $17,454,317’




l Disposal may not always result in revenues to the US. Treasury. Before property is offered for sale to the
public, information about the property is circulated to determine whether the property is needed by any other
Federal agency, including the Department of Housing and Urban Development regarding its suitability for use
by the homeless. In addition, Reclamation law frequently requires that revenues from the sale of land be
credited against existing water district repayment obligations to expedite the repayment of those contracts.



                                                     10
                                                                 APPENDIX 2




                        BUREAU OF RECLAMATION
                      OFFICES VISITED OR CONTACTED


                     Office                               Location

Program Analysis Office                       Denver, Colorado

Mid-Pacific Regional Office                   Sacramento, California
  Northern California Area Office             Willows, California
  Northern California Area Office’            Shasta Lake, California
  South-Central California Area Office        Fresno, California
  Lahontan Basin Area Office’                 Carson City, Nevada
  Central California Area Office              Folsom, California
     New Melones Lake Field Office            Sonora, California

Pacific Northwest Regional Office’            Boise, Idaho
  Upper Columbia Area Office’                 Yakima, Washington
      Ephrata Field Office                    Ephrata, Washington
  Snake River Area Office’                    Boise, Idaho

Great Plains Regional Office                  Billings, Montana
  Eastern Colorado Area Office’               Loveland, Colorado
  Montana Area Office                         Billings, Montana
  Nebraska-Kansas Area Office’                Grand Island, Nebraska
  Newell Field Office’                        Newell, South Dakota
  Oklahoma City Field Office’                 Oklahoma City, Oklahoma

Lower Colorado Regional Office’               Boulder City, Nevada
  Yuma Area Office                            Yuma, Arizona
  Phoenix Area Office’                        Phoenix, Arizona

Upper Colorado Regional Office’               Salt Lake City, Utah




*Offices contacted

                                         11
                                                                                                                 APPENDIX 3
                                                                                                                  Page 1 of 5


               ACQUIRED LANDS IDENTIFIED AS POSSIBLY UNNEEDED

                                                                                                                    Estimated
 Region/            Reasons for Questioning               Questioned              Section, Township,                 Current
 Project               Need of Property’                    Acres                      and Range                     Value’
Great Plains Region
Sun River       Land is located outside of                       1,360      Sections 21, 27, 28, 33,                   $272,000
Project         project boundaries and has not                              and 34, T. 23 N., R. 1 W.;
                been used for project purposes.                             Section 2, T. 22 N., R. 1 W.
                Land around Willow Creek                            650     Sections 18, 19, and 30,                      74,131
                Reservoir is above capacity                                 T. 21 N., R. 6 W. and
                elevation and has not been                                  Sections 23, 26 and 35,
                used for project purposes.                                  T. 21 N., R. 7 W.
Mountain        Land not located within                             160     Section 35, T.4 N., R. 17 W.                117,736
Park            original project boundaries was
Project         identified as excess in 1978 and
                has not been used for project
                purposes.
Pick-Sloan Missouri Basin Program

Narrows         Land is located outside unit                    1,065       Section 28, T. 4 N.,                      1,785,OOO
unit            boundaries and has not been                                 R.58 W.; Sections 26, 27,
                used for project purposes.                                  and 35, T. 4 N., R. 59 W.;
                                                                            Section 19, T. 4 N.,
                                                                            R. 60 W. ; and Sections 14,
                                                                            28, 33, and 34, T. 5 N.,
                                                                            R. 60 W.
                Land represents remaining                       1,262      Sections 21 and 28, T. 4 N.,               1,675,949
                acquired acres associated with                             R. 58 W.; Sections 24, 26,
                the project that was                                       and 27, T. 4 N., R. 59 W.;
                authorized in 1970 but was                                 and Section 18, T. 4 N.,
                never constructed and,                                     R. 60 W.
                according to Bureau personnel,
                probably never will be.


‘Project purposes are defined in individual project and specific authorization laws and include such uses as power. irrigation,
flood control. recreation, and fish and wildlife mitigation and enhancement.

‘The estimated current value was obtained from the Bureauwide automated real property management system (Resource
Information System), which uses index coefficients to compute art acceptable range for estimating the current value of the
Bureau’s acquired lands, which we accepted. In addition, for acreage without value in the real property system and land
purchased for water rights, estimates were obtained from regional and area offtce offkials. Further, there are various costs that
will be incurred with the sale of land, such as costs for land survey and appraisal and environmental and historical research,
which we could not quantify during our review.

                                                               12
                                                                                               APPENDIX 3
                                                                                                Page 2 of 5

                                                                                                 Estimated
 Region/        Reasons for Questioning         Questioned         Section, Township,             Current
 Proiect           Need of Property’              Acres                 and Ranee                 Value’
Oahe Unit    Unit has not been completed as        19,589     The location of the 225             7,034,606
             planned and, according to                        acres used for fish and
             Bureau personnel, probably                       wildlife enhancement, a
             will not be constructed.                         project purpose, was not
                                                              identifiable in project files.
                                                              The 19,589 acres consist of
                                                              the remaining acquired
                                                              project land.
Lower        Land around Elwell Lake is             3,500     Sections 5 and 6, T. 29 N.,         1,492,169
Marias       above capacity elevation and                     R 5 E.; Sections 1 and 2,
unit         not used for project purposes.                   T. 29 N., R. 4 E.;
                                                              Sections 6, 7, 9, 15, 16, 24,
                                                              and 25, T. 30 N., R. 1 E.;
                                                              Sections 13, 14, 20, 21, 22,
                                                              23, and 28, T. 30 N., R. 2
                                                              E.; Sections 16, 17, and 18,
                                                              T. 30 N., R. 3 E.;
                                                              Sections 3, 15, 16, 17, 20,
                                                              26, 29, and 30, T. 30 N.,
                                                              R. 4 E.; Sections 20, 27, 28,
                                                              and 34, T. 30 N., R. 5 E.;
                                                              Sections 3 1, 32, and 33,
                                                              T. 3 1 N., R. 1 E.; Sections
                                                              14, 15, 22, 23, 24, and 25,
                                                              T.31N.,R.3E.;and
                                                              Sections 29, 30, 32, and 34,
                                                              T. 3 1 N., R. 4 E.
             Unit land was identified as                  8   Section 35, T. 30 N.,                  7,670
             unneeded for project purposes                    R13 E.
             in 1989 and is still in the
             Bureau’s possession.
Canyon       Land is used for a golf course             146   Sections 28 and 29, T. 7 N.,         274,358
Ferry Unit   and athletic field near the City                 R. 2 E.
             of Townsend, Montana, which
             were not project purposes.
             Land around Canyon Ferry                   475   Sections 27, 34, and 35,             148,925
             Reservoir is above capacity                      T. 9 N., R. 1 E.; and
             elevation and has not been                       Sections 2 and 11, T. 8 N.,
             used for project purposes.                       R 1 E.




                                                   13
                                                                                                            APPENDIX 3
                                                                                                             Page 3 of 5

                                                                                                               Estimated
  Region/            Reasons for Questioning               QuTzsjzrsred               Section, Township,        Current
  Project               Need of Property’                                                  and Range            Value2
Lower Colorado Region
Gila             Land was idle and has not been                  2,760       Section 15, T. 9 S.,                 690,0003
Project          used for project purposes.                                  R. 19 W.; Sections 2, 11,
                                                                             and 12, T. 8 S., R. 22 W.;
                                                                             and Sections 16, 33, 34, and
                                                                             35, T. 8 S., R. 16 W.
                                                                                                                             4
                 Land was used as part of a                      1,770       Sections 26, 28, 29, 33, and
                 bombing range by the Air                                    36, T. 9 S., R 18 W.
                 Force and has not been used
                 for project purposes.
Colorado        Land was idle and has not been                    2,995     Sections 13, 14, 15, and 27,          748,7505
River           used for project purposes. In                               T. 8 S., R. 16 W.;
Basin           addition, the Area Ofice                                    Section 25, T. 8 S.,
Salinity        incurred trespass-related                                   R. 17 W.; Sections 9 and 10,
Control         administrative burden because                               T. 9 S., R. 18 W.; and
Project         of three trespasses. One                                    Sections 3 and 11, T. 11 S.,
                trespasser has, since 1996,                                 R. 23 W.
                used over 1 acre of this
                unneeded Federal land to farm
                alfalfa, store equipment, and
                extend his citrus grove.
Mid-Pacific Region
Orland          Land around Stony Gorge                            440      Sections 15, 2 1, 22, and 28,         253.773
Project         Reservoir is above capacity                                 T. 20 N., R. 6 W.
                elevation and has not been
                used for project purposes.
                Land around East Park                              250      Sections 34 and 35,                     77,988
                Reservoir is above capacity                                 T. 18 N., R. 6 W.; and
                elevation and has not been                                  Sections 3, 15, and 23,
                used for project purposes.                                  T. 17 N., R. 6 W.




3 Estimated current value was adjusted to reflect exclusion of project water rights.
‘The Bureau allowed the U.S. Air Force to use this land at the Barry M. Goldwater Air Farce Range as part of the Air Force’s
bombing range. No value was attached to this property.

‘Estimated current value was adjusted to reflect exclusion of project water rights.
                                                                                                              APPENDIX 3
                                                                                                               Page 4 of 5

                                                                                                                Estimated
  Region/           Reasons for Questioning                Questioned              Section, Township,            Current
  Project              Need of Property’                     Acres                      and Range                Value’
Humboldt        Land was obtained for water                    29,000         Battle Mountain Community         2,000,0006
Project         rights and has not been used                                  Pasture in T. 32 N., R. 44,
                for project purposes.                                         45, 46, and 47 E.; T. 33 N.,
                                                                              R. 44 and 45 E.; and
                                                                              T. 34 N., R. 44 E.
Central Valley Project

New             Land was identified as excess                       432       Sections 8 and 17, T. 1 N.,         390,838
Melones         in 1992, has not been used for                                R. 13 E.
unit            project purposes, and has not
                been disposed of.
                Land is located outside unit                        150       Section 31, T. 3 N., R. 14 E.        127,729
                boundaries and has not been
                used for project purposes,
Friant-         Eight parcels of land along the                      17       Section 26, T. 13 S.,                119,603
Kern            Canal, ranging in size from                                   R. 23 E.; Section 9, T. 12
Canal           .7 1 acre to 5.7 acres, were                                  S., R. 26 E.; Section 6, T.
                identified as excess in 1989 and                              29 S, R. 27 E.; Section 12,
                have not been disposed of                                     T. 15 S, R. 24 E.; Section
                                                                              13, T. 18 S., R. 26 E;
                                                                              Section 4, T. 25 S., R. 26
                                                                              E.; and Sections 25 and 26,
                                                                              T. 28 S., R. 26 E.
                Land was identified as excess                        28       Section 18, T. 12 S.,                25,201
                in 1984, has not been used for                                R. 22 E.
                project purposes, and has not
                been disposed of
                Trespassed land is not needed                         3       Section 29, T. 15 S.,                 3,471
                for project purposes.                                         R. 25 E.
Shasta          Land is located outside the                         300       Section 27, T. 35 N.,                60,489
Division        existing boundaries of the                                    R. 5 W.
                Whiskeytown-Shasta-Trinity
                National Recreation Area and
                has not been used for project
                purposes. The identified land
                is currently managed by the
                U.S. Forest Service.



‘Estimated current value was adjusted to reflect exclusion of water rights.


                                                               15
                                                                                            APPENDIX 3
                                                                                             Page 5 of 5

                                                                                              Estimated
 Region/       Reasons for Questioning        Questioned         Section, Township,            Current
 Project          Need of Property’             Acres                 and Range                Value2
Pacific Northwest Region
Columbia    The lands are portions of                 860   Sections 9, 11, 14, 20, 21,           53,93 1
Basin       parcels originally purchased to                 and 29, T. 25 N., R. 28 E.;
Project     the nearest 40-acre boundary                    Sections 1, 22, 23, 24, 27,
            and are located above the cliff                 and 34, T. 26 N., R. 28 E.;
            wall around Bank’s Lake.                        Sections 8, 18, and 19,
                                                            T. 26 N., R 29 E.;
                                                            Sections 12, 14, 17, 20, 22,
                                                            23, 30, and 3 1, T. 27 N.,
                                                            R 29 E.; Section 7, T. 27
                                                            N., R. 30 E.; and Section 22,
                                                            T. 28 N., R. 30 E.
                                  Totals         67,220                                      $17,454,317




                                                 16
                   United States Department of the Interior                                  APPENDIX 4
                                                                                              Page 1 of 4
                                    OFFICE OF THE SECRETARY
                                         Washington, D.C. 20240




                                        MEMORANDUM


TO:            Office of Inspector General
                Attention: Assistant Inspector General for Audits

From:          El;lsgnezz*___


Subject:       Draft Audit Report on “Identification of Unneeded Acquired Lands, Bureau of
               Reclamation,” Assignment No. W-IN-BOR-001-98(D)

The Bureau of Reclamation (Reclamation) offers the following comments in response to the
recommendations in the subject report:

Recommendation 1

Develop and issue clear policies and procedures to guide Bureau officials in conducting land
reviews and identifying unneeded real property.

        Response

        Concur. Reclamations’s Program Analysis Office has prepared draft directives and
        standards for land disposal. This document will address real property reviews and the
        identification of unneeded acquired lands. The directives and standards will be finalized
        by October 1, 1999. The responsible official is the Chief Realty Officer, Program
        Analysis Office.

Recommendation 2

Establish a Bureau wide plan of action to ensure that regular reviews of real property are
conducted based on the guidance developed under Recommendation 1.

        Response

        Concur. Concurrent with finalization of the directives and standards for land disposal, a
        Reclamation-wide action plan will be developed for conducting real property reviews.
        The estimated target date for completion on this recommendation is October 1, 1999.
        The responsible official is the Chief Realty Officer, Program Analysis Office.




                                                 17
                                                                                          APPENDIX 4
                                                                                           Page 2 of 4
                                                                                                2

Recommendation 3

In implementing Recommendations 1 and 2, notify the Congress of the Bureau’s intention to
dispose of acquired lands in accordance with 41 CFR 101-47 that were initially purchased for
authorized projects but presently are not needed for undeveloped or incomplete projects.

       Resnonse

       Concur. Reclamation will notify the Congress of our intention to dispose of lands
       initially acquired for authorized projects, but no longer needed for projectpurposes. The
       Congress will be notified of unneeded lands identified as a result of real property reviews.
       The responsible official is the Chief Realty Officer, Program Analysis Office.


Attached are additional comments on the draft report. We welcome the opportunity to further
discuss our response with you if necessary.




Attachment

cc: Assistant Secretary - Water and Science, Attention: Carla Burzyk




                                                18
                                                                                           APPENDIX 4
                                                                                            Page 3 of 4
                                       Additional Comments

                   IDENTIFICATION OF UNNEEDED ACQUIRED LANDS
                             BUREAU OF RECLAMATION
                                W-IN-BOR-001-98(D)


Reclamation agrees with the audit findings and will implement the audit recommendations to
further the assessment and disposal of unneeded acquired lands as warranted. The following
comments are intended to provide additional information on Reclamation’s land disposal
program. Please incorporate relevant portions in the final audit report.

The draft report identified 67,220 acres of acquired lands as potentially excess to specific
Reclamation project program needs. The estimated current value (not the current fair market
value) of these lands is $17,454,3 17. Inherent in this determination is a narrow interpretation by
the audit team of 43 CFR Part 8 - Joint Policies of the Departments of the Interior and of the
Army Relative to Reservoir Project Lands. The interpretation that has been applied is that if the
lands do not have structures or actual waters associated with the reservoirs, then the lands are
excess to the authorized project program requirements. Reclamation does not agree with this
interpretation.

Reclamation believes the policy is broader than described in the report. Sections 8.2 and 8.3 of
43 CFR Part 8 provides for management discretion in acquiring additional lands for fish and
wildlife and such lands as are needed for future outdoor recreation. This policy grants the
acquiring agency considerable latitude in determining what lands to acquire above and beyond
the actual water surface storage requirements of a reservoir or near structures. Reclamation has
the authority and responsibility to manage lands for public recreational activities and for wildlife
mitigation and enhancement purposes. In addition, with the increasing awareness of the impacts
of older projects on wildlife habitat and expanding public recreational uses of project lands,
Reclamation is having to reevaluate a broad range of uses of program lands. It is important not
to dispose of lands that may have habitat potential for wildlife or that may be beneficial for
program mitigation purposes.

The audit team reported that real property field reviews to identify unneeded acquired lands have
not been performed since 1993. We recognize that over the last several years field reviews have
not been conducted consistently within Reclamation and that more attention could be focused on
this issue, but consistent with other priorities. Some offices do perform the field reviews, For
example, the Ephrata Field Office (EFO) has completed a review of 89,000 acres of acquired
land in the Scattered Tracts Resource Management Plan, published in January 1998. The
resource management plan recommends the disposal of over 12,000 acres and the EFO is
actively pursuing a disposal process identified in its plan. Additionally, the EFO is evaluating all
of the lands (38,400 acres) associated with Banks Lake, Columbia Basin Project, through a
resource management planning (RIG) effort. Any decisions to dispose of lands at this reservoir
will be based on the results of the RMP.



                                                 19
                                                                                           APPENDIX 4
                                                                                            Page 4 of 4
                                                                                                    2


In other cases, there are valid reasons why the disposal of lands has not occurred. For example,
the 19,589 acres of land for the Oahe Unit-Pick Sloan Missouri Basin Program are being held in
abeyance of disposal pending final negotiations with the State of South Dakota. The negotiations
are in connection with commitments made to the State by Reclamation. The “unused” lands
associated with the Gila and Lower Colorado River Salinity Control Acts are still being retained
by Reclamation for the purpose for which they were acquired. It is not prudent to attempt to
dispose of these lands into the private real estate market and risk development that would
encourage pumping of the groundwater.

Notwithstanding the findings of the report, the final report should recognize that between fiscal
years 1993 and 1997, Reclamation disposed of approximately 4,600 acres of acquired land with a
current fair market value of over $9,300,000. We want to emphasize that considerable staff
resources are required to effectuate these disposals and this effort must be balanced against other
realty programs. These include the numerous initiatives for the title transfer of Reclamation
lands acquired or withdrawn to irrigation districts that want to participate in the conversion of the
program lands to private ownership. Additionally, there is a continuing effort with the Bureau of
Land Management in the justification of existing Reclamation withdrawals and revocation of the
lands not required for continued retention under Reclamation jurisdiction. The title transfer and
the withdrawal review programs have the potential to remove a substantial amount of lands from
Reclamation’s inventory.




                                                 20
                                                                 APPENDIX 5



        STATUS OF AUDIT REPORT RECOMMENDATIONS


    Finding/
Recommendation
   Reference            Status                 Action Required

   1,2, and 3    Resolved; not   No further response to the Office of Inspector
                 implemented     General is required. The recommendations
                                 will be referred to the Assistant Secretary for
                                 Policy, Management and Budget for tracking
                                 of implementation.




                                 21
                   ILLEGAL OR WASTEFUL ACTIVITIES
                       SHOULD BE REPORTED TO
                  THE OFFICE OF INSPECTOR GENERAL


                               Internet/E-Mail Address

                                      www.oig.doi.gov



                       Within the Continental United States

U.S. Department of the Interior                         Our 24-hour
Office of Inspector General                             Telephone HOTLINE
1849 C Street, N.W.                                     l-800-424-5081 or
Mail Stop 5341                                          (202) 208-5300
Washington, D.C. 20240

                                                        TDD for hearing impaired
                                                        (202) 208-2420 or
                                                        l-800-354-0996


                      Outside the Continental United States

                                     Caribbean Region

U.S. Department of the Interior                         (703) 235-9221
Office of Inspector General
Eastern Division - Investigations
4040 Fairfax Drive
Suite 303
Arlington, Virginia 22203

                                    North Pacific Region

U. S . Department of the Interior                     (67 1) 647-6060
Offke of Inspector General
North Pacific Region
415 Chalan San Antonio
Baltej Pavilion, Suite 306
Tamuning, Guam 96911
     *
    :     Toll Free INumbers:
    .      l-800-424-5081
    :
    :      IDD l-800-354-0996
    :
    :    FTSXommerciai Numbers:
    :
    .     (202) 208-5300
     :    TDD (202) 208-2420
    :
    :
    :
    :
          HOTLINE
    :    1849 C Streeq N.W.
    :
         Mail Stop 5341
 3       Washington. D.C. 20240
 :
 :
 :
:
:
:
:
:
:
m
a
